HHS/OIG-Audit--"Five-State Review of Partial Hospitalization Programs at Community Mental Health Centers, (A-04-98-02145)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Five-State Review of Partial Hospitalization Programs at Community Mental Health Centers," (A-04-98-02145)
October 5, 1998
Complete
Text of Report is available in PDF format (2.5 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that for the year ended September 30, 1997, Medicare fiscal intermediaries (FI) paid community
mental health centers (CMHC) in five States $229 million (about 91 percent of the total amount paid of $252 million) for
unallowable or otherwise highly questionable partial hospitalization program (PHP) services. The services were unallowable
or questionable because: (1) beneficiaries were ineligible for PHP services; (2) the services were not reasonable and necessary
for the patient's condition; (3) the services were not properly authorized by or furnished under the general supervision
of a physician; and (4) services were not documented or were inadequately documented. Among other things, we recommended
the recovery of improper payments, and that the Health Care Financing Administration take strong action against those facilities
which did not meet the requirements to be CMHCs , including termination of provider agreements, where appropriate. The
HCFA concurred with our recommendations.